2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-283 I
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. - - - GREG SKIPPER, WARDEN, PETITIONER
v.
CURTIS JEROME BYRD
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 5th day of February, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
Dana Nessel
Michigan Attorney General
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF l@michigan.gov
(517) 335-7628
Ann M. Sherman
Deputy Solicitor General
Attorneys for Petitioner

Subscribed and sworn to before me this 5th day of February, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38916

Elizabeth L. Jacobs
615 Griswold, Ste 1125
Detroit, MI 48226
elzj acobs@aol.com
313-962-4090

